CERTIFICATE OF SERVICE
NO. 20-332
Maggy Hurchalla
Petitioner,
v.
Lake Point Phase I, LLC, et al.
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the LAKE
POINT PHASE I, LLC, ET AL. BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Jamie S. Gorelick
Wilmer Cutler Pickering Hale And Dorr LLP
1875 Pennsylvania Ave., N.W.
Washington, DC 20006
(202) 663-6000
jamie.gorelick@wilmerhale.com
Counsel for Maggy Hurchalla

Lucas DeDeus

November 13, 2020
SCP Tracking: Altenbernd-501 E. Kennedy Boulevard-Cover Orange

